Audit of USAID/Benin’s Health Program


7-680-04-002-P

January 8, 2004




                  Dakar, Senegal
January 8, 2004

MEMORANDUM

FOR:           USAID/Benin Acting Director, Modupe Broderick

FROM:          Lee Jewell III, RIG/Dakar /s/

SUBJECT:       Audit of USAID/Benin’s Health Program
               (Report No. 7-680-04-002-P)


This memorandum is our final report on the subject audit. In finalizing this
report, we considered management’s comments on our draft report and included
them in Appendix II.

This report contains three recommendations to which you concurred in your
response to the draft report. Based on your plans and actions in response to the
audit findings, management decisions have been reached on all three
recommendations, and the first recommendation is considered closed upon
issuance of this report. The remaining two recommendations remain open until
final actions are taken by the Mission. Please coordinate final actions on these
two recommendations with USAID’s Office of Management Planning and
Innovation (M/MPI).

I appreciate the cooperation and courtesies extended to the members of our
audit team during this audit.




                                                                                   1
(This page intentionally left blank)




                                       2
Table of   Summary of Results                                              5
Contents
           Background                                                      6

           Audit Objective                                                 7

           Audit Findings                                                  7

                   Does USAID/Benin have an activity monitoring
                   program in place to ensure proper management
                   oversight of its Health Program?                        7

                      More Consistent and Systematic
                      Approach Needed for Site Visits                      8

                      Data Quality Assessment Needed
                      For Annual Report Information                        9

                   Has the Health Program achieved its planned results?   11


           Management Comments and Our Evaluation                         16

           Appendix I – Scope and Methodology                             17

           Appendix II – Management Comments                              19




                                                                               3
(This page intentionally left blank)




                                       4
Summary of   The objectives of this audit were to determine (1) if USAID/Benin had a
Results      monitoring system in place to assure proper oversight of its Health Program;
             and (2) if the Health Program achieved its intended results. (See page 7.)

             USAID/Benin has not established a monitoring system that would fully
             provide management with proper oversight of the Family Health program
             activities. Although some monitoring efforts had been made, visits to
             implementing partner sites were not consistently documented nor conducted
             systematically. Staff did not conduct quarterly visits as described in the
             Performance Monitoring Plan, and during visits that were made, the partners’
             data were not validated. (See pages 7 through 9). Without procedures in place
             to systematically and consistently monitor the Family Health program
             activities, USAID/Benin cannot be fully assured that the program activities
             conducted by the implementing partners will lead to the achievement of the
             health strategic objective. (See page 9). We recommend the Mission establish
             a schedule and procedures for conducting site visits. (See page 9).

             Relatedly, the Mission had not conducted a data quality assessment (DQA) of
             the information reported to USAID/Washington as required. (See pages 9 and
             10). Although the accuracy of selected health program data for fiscal year
             2002 was tested during the audit and no material errors were found,
             USAID/Benin cannot be assured as to the accuracy of the data reported to
             USAID/Washington in subsequent years without a formal, periodic DQA. (See
             page 11). We recommend the Mission develop procedures for conducting a
             DQA. (See page 11).

             USAID/Benin’s Family Health program has generally achieved its planned
             results for fiscal year 2002. A review of 22 performance measures showed that
             the actual results for more than half of those measures were at 100 percent or
             more of the planned results. (See pages 11 through 13). For four measures
             with results substantially lower than expected, the implementing partner
             responsible for the activities has implemented options to improve performance.
             (See page 14). However, challenges remain for the Mission in developing and
             maintaining the high-level government support for health policies and reform
             needed for effective programs, and in ensuring sustainability for the
             achievements made so far. (See pages 14 and 15).

             USAID/Benin agreed with the recommendations in the audit report and based
             on plans and actions in response to the audit findings, management decisions
             have been reached on all three recommendations and the first recommendation
             is considered closed upon issuance of this report. The remaining two
             recommendations remain open until final actions are taken by the Mission and
             coordinated with USAID’s Office of Management Planning and Innovation
             (M/MPI). (See page 16).


                                                                                            5
Background   In 1998, USAID established a Family Health program in Benin with the
             objective to increase the use of preventive health measures and family health
             services in a supportive policy environment. The results of a 1996
             Demographic and Health Survey in Benin revealed the seriousness of the
             country’s health problem -- Benin had among the worst maternal and child
             health statistics in Africa, the use of family planning services was among the
             lowest and the HIV infection rate was growing.

             USAID/Benin’s Family Health program’s overall approach is two-fold. At the
             national level, interventions with the Ministry of Health focus on improving
             policies on key family health issues, improving weak management and
             planning systems, and strengthening fragile partnerships between the public
             and private sector. These interventions are complemented by a regional
             integrated family health program targeting the Borgou/Alibori area where
             health statistics were worse than the national average. The program also
             supports nationwide social marketing of contraceptives as well a national- and
             community- level campaign for HIV/AIDS prevention. The Family Health
             team, composed of five staff at the time of our audit, managed the program
             within the Mission.

             USAID/Benin funds a number of implementing partners to conduct health
             programs in support of the Family Health program’s objective. Three key
             partners during fiscal year 2002 were:

             •   Population Services International, responsible for implementing
                 AIDSMark, the social marketing program of family health products, a 5-
                 year, $7.5 million program that ended in March 2003.
             •   Africare, the lead in a consortium that also includes Johns Hopkins
                 Program for International Education in Gynecology and Obstetrics,
                 responsible for implementing the Benin HIV/AIDS Prevention Program, a
                 4-year, $4.5 million program begun in May 2002.
             •   University Research Co., LLC, the lead in a consortium that includes the
                 Program for Appropriate Technology in Health, the Cooperative League of
                 the USA, and the Association Béninoise pour la Promotion de la Famille,
                 responsible for implementing the Benin Integrated Family Health program
                 called PROSAF in the Borgou and Alibori departments, a 4-year, $12
                 million program, with a January 2004 completion date.

             Total funding for USAID’s Family Health program in fiscal year 2002 was
             $5,013,000.




                                                                                         6
Audit Objective   In accordance with its fiscal year 2003 audit plan, the Regional Inspector
                  General, Dakar performed this audit to answer the following audit objectives:

                     •   Does USAID/Benin have an activity monitoring program in place to
                         ensure proper management oversight of its Health Program?

                     •   Has the Health Program achieved its planned results?

                  Appendix I contains a complete discussion of the scope and methodology of the
                  audit.


                  Does USAID/Benin have an activity monitoring program in place to
Audit Findings    ensure proper management oversight of its Health Program?

                  USAID/Benin does not have a system in place that provides for full
                  management oversight of the Family Health program activities. Mission staff
                  have made some efforts to monitor program activities, including performing
                  some site visits and communicating with the program’s implementing partners.
                  However, problems regarding the monitoring of the program include the lack
                  of a systematic and consistent approach to site visits and other partner
                  encounters as well as the lack of a data quality assessment.

                  USAID/Benin staff indicated that they communicate regularly with the staff of
                  the implementing partners, and the partners agreed that such communication
                  does take place. In addition to this informal communication, staff have also
                  been involved with more formal activities. For example, one Cognizant
                  Technical Officer (CTO) on the Family Health team serves on a committee
                  comprised of staff from AFRICARE and the Ministry for Health and attends
                  monthly meetings to monitor the implementation of the national AIDS
                  strategy. Another CTO responsible for managing the contract for the PROSAF
                  project provided documentation for seven trips between December 2001 and
                  June 2003. For example, in February 2002, the CTO visited the partner’s
                  office in northern Benin specifically to review the implementation of their
                  Performance Monitoring Plan (PMP). The CTO also verified the distribution
                  of computer and office equipment provided by the partner to local health
                  department offices. Additionally, the Family Health team hosts a meeting each
                  year, during which partners present their results for the preceding year and
                  consensus is reached regarding which indicators to include in the Mission’s
                  annual report to Washington.

                  While these activities have provided the Family Health team with information
                  for general program oversight, improvements are needed to assure proper
                  management oversight of the Family Health program activities. This includes


                                                                                             7
developing procedures for a more consistent and systematic approach for site
visits and performing data quality assessments.

More Consistent and Systematic
Approach Needed for Site Visits

The Mission did not perform site visits in a systematic or consistent manner
that would ensure adequate monitoring of the partners’ activities. This is
contrary to USAID guidance that performing site visits is an important part of
program monitoring and documentation of such visits should be maintained.
The inconsistency in site visits was a result of the lack of procedures that
provided guidance for such visits. As a result, the Mission cannot be fully
assured that the partners are carrying out activities that contribute to the
achievement of the Mission’s health strategic objective.

Although the Family Health team staff conducted some site visits, the
documentation of these visits was extremely limited. As discussed previously,
one CTO provided trip reports for seven visits made between December 2001
and June 2003, but the other CTO responsible for the activities of two other
implementing partners stated that he did not routinely document his visits, but
did provide an oral summary to the Family Health team leader. Additionally,
although the PMP for the health program requires quarterly monitoring visits,
the Family Health team staff acknowledged that such visits were not made
each quarter. For example, the review of one CTO’s documentation of site
visits indicated that three visits were made in a two-month period, but there
was a gap of 8 months until the next visit.

Our review of the site visit documentation that existed showed that visits were
made for a variety of reasons but did not include any efforts to verify the
validity of the data developed and reported by the partners. In several
instances, USAID/Benin staff participated in meetings or workshops along
with partner and government staff and officials. While these activities are
worthwhile and important, they only provide partial assurance for management
oversight.

USAID’s Automated Directives System (ADS) section E303.5.13 states that
site visits are an important part of effective award management and
recommends that reports of the visits should be maintained in official files.
Similarly, ADS section 303.3.4.c indicates that the responsibilities of the CTO
include monitoring and evaluating the recipient and the recipient’s
performance by maintaining contact through site visits. Moreover, U.S.
Government internal control standards require that important events be
properly documented. We believe that site visits are an important event in the
overall monitoring process and should be documented.

The lack of consistent and documented site visits occurred due to the fact that
the Mission had not developed specific procedures for monitoring program
                                                                             8
activities. Such procedures would provide a framework for conducting site
visits to better ensure proper management oversight. A USAID/Benin Health
Team official attributed the lack of structured procedures to various factors.
The Family Health team leader indicated that he was relatively new in the
position, due to turnover in the team’s previous leadership, and was in the
process of identifying where improvements could be made in the team’s
performance. He stated he usually received an oral account of meetings with
partners, but recognized that more formal written records of the meetings were
needed. He attributed the lack of documentation to staff time constraints and
lower priority placed on administrative activities such as documenting
meetings.

Without conducting timely and appropriate site visits, the Mission cannot be
fully assured that the partners are carrying out activities that contribute to and
ensure achievement of the health strategic objective. Furthermore, without
formally documenting visits and other key encounters with implementing
partners, important program information may not be available to Mission
management, and would ultimately be lost if Family Health team staff were
to leave USAID.

Therefore, to address the lack of consistent procedures during site visits that
would ensure systematic monitoring of program activities, we make the
following two recommendations.

       Recommendation No. 1:        We recommend that the
       USAID/Benin create a schedule of monitoring visits to be
       conducted for each partner implementing USAID health
       program activities in accordance with the Performance
       Management Plan.

       Recommendation No. 2:          We recommend that the
       USAID/Benin develop procedures to monitor health
       program activities that would include a checklist specifying
       the purpose and activities to be conducted during each
       scheduled monitoring visit.


Data Quality Assessment
Needed for Annual Report Information

USAID/Benin did not perform a data quality assessment (DQA) in the three
years preceding the submission of the data to USAID/Washington as part of
the annual reporting process as required by the ADS. This was due to a
misunderstanding of the purpose of technical assistance provided to the
Mission in 2002. During the audit, the accuracy of selected health program
indicators reported in the Mission’s fiscal year (FY) 2003 Annual Report was
tested and no material errors were found. However, without a formal, periodic

                                                                                     9
DQA that fully meets the ADS requirements, USAID/Benin cannot assure the
validity and accuracy of the data reported to USAID/Washington in future
reports.

USAID/Benin did not perform a data quality assessment on information
included in their FY2003 Annual Report for health program activities that
occurred during fiscal year 2002. The Family Health team staff member
responsible for overall monitoring and evaluation stated that such an
assessment had been performed as part of the technical assistance provided to
the Mission in 2002 by USAID/Washington. However, a review of the
documentation for this technical assistance revealed that the purpose was not to
conduct a DQA, but rather to assist the Mission and implementing partners in
finalizing their PMPs, validate data collection plans and identify means of
independently verifying data. Some of these activities conducted during this
assessment are similar to those that would be performed as part of a DQA. For
example, a DQA would include a review of data collection, maintenance and
processing procedures, some of which was performed as part of the technical
assistance. However, the technical expert’s report describing the results of the
technical assistance does not include any references to verifying specific data,
a key step in a DQA. Moreover, she was also tasked with and completed a
scope of work for a data quality assessment to be conducted in the future.

ADS Section 203.3.5.2 states that data reported to USAID/Washington must
have had a data quality assessment at some time within the three years before
submission. It further states that when conducting data quality assessments of
data from implementing partners, the focus should be on the accuracy and
consistency of the data, and the findings should be documented in a memo to
the file.

A data quality assessment was not performed as required due to confusion over
the purpose and results of the technical assistance provided to the Mission in
2002. As a result, the Mission’s annual report included data that had not been
subjected to a DQA. As part of the audit, we tested the accuracy and validity
of the eight indicators that USAID/Benin included in their FY2003 Annual
Report. For all eight indicators, we traced the figures included in the annual
report back to source documents, which included reports of the implementing
partners’ activities or nationwide survey results. For six of the eight indicators
we found no discrepancies and only minor discrepancies in the remaining two.
For example, the annual report includes data showing the change in the
percentage of children who were exclusively breastfed between 1996 and
2001. However, the data for 1996 was for children age 0 to 3 months, and the
2001 data was for children age 0 to 6 months. While the comparison may not
be completely accurate, the data reported for both points in time were accurate.

We also verified data reported by two partners back to their source documents,
and found no discrepancies. For example, we traced Population Services
International’s sales data for socially marketed products including condoms,

                                                                               10
oral contraceptives, and insecticide-treated bed nets back to their monthly sales
records, and then back to individual product order sheets and invoices. We
also successfully reconciled inventory records with the physical inventory of
selected equipment provided by the University Research Co.,LLC-led
consortium to a health clinic, a health zone office, and a regional
pharmaceutical warehouse. We found no discrepancies and noted that the
equipment was appropriately labeled with the USAID logo.

Although we found no errors in the data reported to USAID/Washington or the
partners’ source documents, without a formal, periodic DQA that fully meets
the ADS requirements, USAID/Benin cannot assure the validity and accuracy
of the data reported to USAID/Washington in future years. Without such an
assessment, data limitations might not be recognized and flawed data might be
reported and used for management decisions.

Therefore, to ensure that USAID/Benin is aware of the extent to which data
can be trusted when making management decisions and to address the lack of
the required data quality assessment, the following recommendation is made.

       Recommendation No. 3: We recommend that USAID/Benin
       develop procedures that provide reasonable assurance that
       data reported to Washington have a data quality assessment
       performed at least once every three years.


Has the Health Program achieved its planned results?

For the most part, USAID/Benin’s Family Health program has achieved its
planned results related to increased use of family health services and
preventative measures. The Mission reported in its FY2003 Annual Report
that the health program targets were met, and our review of the actual results
for 22 performance measures showed that more than half achieved 100 percent
or more of the planned results. Furthermore, for the measures where the actual
results fell significantly short of the planned results, USAID/Benin and/or its
partners have identified actions to improve performance. However, challenges
remain for the Mission in achieving their objective related to facilitating a
supportive policy environment -- a challenge faced by all the USAID/Benin
teams.

In general, USAID/Benin’s Family Health program achieved its intended
results. In its FY2003 Annual Report for activities conducted in fiscal year
2002, the Mission reported that the program targets were met. For example,
the report indicates that family health in Benin has significantly improved
since 1996, with an increase in the use of contraception nationwide, a decrease
in the average number of births per woman, and an increase in the use of key
family health services and preventive measures. Additionally, there was an
increase in the sales of socially marketed products, including condoms,
                                                                              11
contraceptives, and insecticide-treated mosquito nets. This social marketing
program has also promoted positive behaviors, including television and radio
messages recommending sexual abstinence and fidelity as well as producing a
quarterly magazine dealing with reproductive health issues for youth.

Our review of results reported for 22 performance measures for increased use
of family health services showed that the actual results for 13 performance
measures met or exceeded the planned results. (See Table 1 on the following
page).




                                                                         12
Table 1: Percentage of Planned Results Achieved for Selected Performance
Measures for Fiscal Year 2002

                                                                              Results
                                                                             Achieved
                      Performance Measure                                    (percent)
    Achieved 100 percent or more of planned results
     Knowledge of symptoms of sexually transmitted infections                    207
                                                  (two measures)                 130
                                    Oral rehydration therapy use                 203
      Health worker compliance with norms for managing child                     140
                                                         illnesses
             Knowledge of modern methods of family planning                      125
        Sales of socially marketed retreatment kits for mosquito                 121
                                                              nets
              Home treatment /care sought for fever and malaria                  119
                                                  (two measures)                 100
                            Sales of socially marketed condoms                   117
    Sales of socially marketed insecticide-treated mosquito nets                 117
                               Knowledge of malaria prevention                   117
                                                 (two measures)a                  91
         Cumulative sales points for socially marketed condoms                   111
                                    Exclusive breastfeeding rate                 102
                  Sales of socially marketed oral contraceptives                 101
     Performance index score for community health committees                     106
    Achieved between 91 and 100 percent of planned results
                               Fully vaccinated rate for children                98
                                                  (two measures)                 93
                       Contraceptive prevalence rate for women                   92
    Achieved between 51 and 90 percent of planned results
            Sales of socially marketed injectable contraceptives                 90
           Health centers with integrated family health services                 77
                Sales of socially marketed oral rehydration salts                67
    Achieved 50 percent or less of planned results
      Health worker compliance with norms for family planning                    47
                                                             visits
                  Couple-years of protection (contraception use)                 45
                    Health zone management and planning score                    23
       Health worker compliance with norms for prenatal visits                   13
a
 Knowledge of malaria prevention is one measure with a single planned result, but actual
results are reported by gender. We chose to show this in the highest category of achievement.

Table 1 also shows that for two measures the actual results were between 91
and 100 percent of the planned results, and for three measures the actual results
were between 51 and 90 percent of the planned results.

                                                                                          13
However, the level of achievement for four of the measures was below 50
percent. According to the implementing partner responsible for reporting
results, various factors contributed to the less-than-expected performance. For
example, one measure called Couple-Years of Protection is a mathematical
calculation designed to estimate the level of protection against pregnancy
based on the volume of contraceptives sold and/or distributed. The actual
results in fiscal year 2002 were only 45 percent of the planned results. The
implementing partner attributed this lower achievement to the lack of up-to-
date data in the national database used for the calculation, and planned to work
with the government to improve the completeness of the database. Since
reporting the data in September 2002, the issues for the most part have been
resolved and the partner is reporting improved performance for this measure.

Another measure is the assignment of a score to each of seven health zones
administrations measuring their management and planning skills. In fiscal year
2002, the actual results were only 23 percent of the results expected for that
year. The partner attributed the less-than-expected performance to a mid-year
change in the scoring mechanism, which became much stricter, but the results
continued to be measured against the goal established for the more liberal
scoring system. According to the partner, as of the third quarter of fiscal year
2003, performance has improved and the actual results now represent 89
percent of the 2003 planned results.

However, challenges remain for USAID/Benin in achieving their objective
related to facilitating a supportive policy environment. For example, one
continuing challenge to a successful HIV/AIDS prevention program is
ensuring high-level support from the Beninese government. According to
USAID/Benin, the country’s relatively low rate HIV infection rate (when
compared to other countries) creates a false sense of security, which impacts
obtaining sustained political support. However, some positive efforts
indicating the government’s commitment were made in 2002. The government
created a multi-sectoral HIV/AIDS control committee and, for the first time,
the President spoke publicly about HIV/AIDS prevention. However, the
challenge still remains to develop policies that will ensure continued high-level
support.

Another challenge is to further the movement towards decentralization of
government activities. The overall strategy of the health program was to
develop a regional program that avoids the dysfunction of a highly centralized
system. This approach also includes assisting the central government in
passing effective power to the local level. Decentralization has been embraced
in principle and there have been some success stories. In 2002, the community
health zone management committees for two health zones prepared and
defended health service budgets and plans of action. However, the Ministry of
Health suffers from a long history of highly centralized bureaucracy, and much
reform remains. For example, in 2002 the Ministry of Health established a
second pharmaceutical warehouse in a town about 350 kilometers from the

                                                                              14
capital city of Cotonou (where the first warehouse is located) to provide better
access to medicine and medical supplies in central and northern Benin. While
the opening of this warehouse could be considered part of a move towards
decentralization, in reality, the central warehouse in Cotonou still controls the
day-to-day logistical and financial operations of the warehouse.

Another continuing challenge is to ensure that the investments made so far are
sustained at all levels. A mid-term evaluation of the PROSAF project
conducted in 2002 states that many of the partner’s innovations are sustainable,
such as the training and the strengthening of coordination at the local level.
However, it also states that the most significant constraint to sustaining the
work started by this partner is financial. For example, computers and other
basic office equipment and furniture were provided to a health zone office
through the PROSAF project. During a site visit, the office manager indicated
that the equipment was all functional with the exception of a printer, which
lacked a new printer cartridge. PROSAF project officials acknowledged that
they were aware of this problem, and while they could easily provide another
ink cartridge, the equipment was provided to the health zone office with the
understanding that the government would sustain the day-to-day operations of
the office by supplying consumable supplies such as print cartridges and paper.
However, some progress is being made in encouraging the local communities
to take ownership and responsibility for assuring the sustainability of their
health program. The same partner has been assisting health zone committees
and management to develop a financing scheme to generate local funds for
health programs. Under the partner’s guidance, the communities have
developed and implemented some income-generating activities, such as
operating a small restaurant, establishing a taxi service, and opening a
boutique. As of August 2003, five communities have generated the equivalent
of approximately $7,000.

USAID/Benin officials stated that concerns about decentralization and
sustainability are not unique to the health program but in fact, are issues faced
in all USAID programs in Benin. They said they plan to specifically address
these issues in the Mission’s next strategic plan.




                                                                              15
Management       In response to the draft report, USAID/Benin agreed with all of the findings
                 and recommendations in the draft audit report, and indicated that appropriate
Comments and
                 actions would be taken to address all three recommendations. Therefore, a
Our Evaluation   management decision has been reached for all three recommendations. Based
                 on actions taken, Recommendation No. 1 is considered closed upon issuance of
                 this report. However, due to unforeseen circumstances, the issuance of final
                 Mission orders needed to close Recommendations No. 2 and 3 did not occur on
                 December 29, 2003 as indicated in the Mission response. In subsequent
                 communication, the Mission indicated that the final orders will be issued on or
                 about February 2, 2004. Therefore, these two recommendations remain open
                 until final action is taken by USAID/Benin and coordinated with USAID’s
                 Office of Management Planning and Innovation (M/MPI). USAID/Benin’s
                 management comments included supporting attachments, which are not
                 included in this audit report.

                 Recommendation No. 1 recommends that the Mission create a schedule of
                 monitoring visits to be conducted for each partner implementing USAID health
                 program activities in accordance with the Performance Management Plan. The
                 Mission concurred with this recommendation and has developed a schedule for
                 fiscal years 2004 and 2005 to conduct monitoring visits. In addition to
                 providing specific dates for the monitoring visits, the schedule also indicates
                 due dates for preparing trip reports.

                 Recommendation No. 2 states that the Mission needs to develop procedures to
                 monitor health program activities that would include a checklist specifying the
                 purpose and activities to be conducted during each scheduled monitoring visit.
                 The Mission drafted a Mission Order that summarizes the requirements for
                 conducting site monitoring visits, and incorporates a checklist to be used
                 during such visits.

                 Recommendation No. 3 recommends that the Mission develop procedures that
                 provide reasonable assurance that data reported to Washington have a data
                 quality assessment performed at least once every three years. To address this
                 recommendation, the Mission drafted a Mission Order regarding procedures
                 and frequency of assessing indicator and data quality assessments that also
                 incorporates a data quality assessment checklist to be used by each Strategic
                 Objective team. The Mission is also requesting Strategic Objective teams to
                 include information on data quality assessments during the annual portfolio
                 review. Additionally, the Mission is recruiting a consultant to perform a data
                 quality assessment by the end of the first quarter of 2004.




                                                                                             16
                                                                                   Appendix I



Scope and     Scope
Methodology
              The Regional Inspector General/Dakar conducted this audit in accordance with
              generally accepted government auditing standards. The purpose of the audit
              was to determine (1) if USAID/Benin had a monitoring system to provide
              oversight of its Health Program and (2) if the Health Program had achieved its
              planned results. The audit was conducted at USAID/Benin in Cotonou from
              September 26 to October 16, 2003. Site visits were also made to the offices of
              three implementing partners: Population Services International and Africare,
              both located in Cotonou, and University Research Co.,LLC-led consortium,
              located in Parakou.

              During the site visit to Parakou, we also observed health program activities and
              talked with officials and staff during visits to various sites within the
              department of Borgou, including the Health Zone office in Bembereke, the
              Community Health Center in Gamia and the Centrale d’Achat des
              Medicaments Essentiels (CAME) medical warehouse in Parakou.

              We assessed the management controls of the program using USAID guidance
              including the Automated Directives System, mission reports, and other internal
              policies and procedures. The audit scope focused on examining the procedures
              used by the Mission and the selected implementing partners to monitor health
              program activities. This included reviewing reports prepared by the Mission
              and partners, reviewing and tracking indictors back to a variety of source
              documents, and visiting partner offices and field sites to review documentation
              and observe activities. It also included reviewing the Mission’s achievement
              of its reported results and assessing the data quality of selected performance
              data for fiscal year 2002.


              Methodology

              While conducting fieldwork, we performed limited tests of compliance with
              USAID procedures regarding results reporting and program monitoring at the
              Mission level. To verify the accuracy of performance indicator data that were
              reported to USAID/Washington in the FY 2003 Annual Report (for activities
              conducted in fiscal year 2002), we traced the reported data back to reports
              submitted by the implementing partners. We then traced the partners’ data
              back to their supporting documentation. Our verification included examining
              source documents and electronic and manual records.

              To determine the extent to which program results had been achieved, we
              compared the actual results in 2002 for 22 performance measures to the

                                                                                           17
planned results for the same year contained in the Mission’s Performance
Monitoring Plan.

We also interviewed responsible personnel at the USAID Mission in Benin as
well as at the three selected implementing partners’ offices and field sites
concerning program activities, monitoring efforts and data accuracy issues.

In assessing the accuracy of the data, we used a threshold of one percent for
transcription accuracy and five percent for computation accuracy.




                                                                          18
                                                                                   Appendix II


Management
Comments
                           U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT
                           C/O AMERICAN EMBASSY, 01 B.P. 2012 COTONOU, BENIN




MEMORANDUM

DATE:        December 29, 2003

TO:          Lee Jewell III, RIG/Dakar

FROM:        Modupe Broderick, A/Director USAID/Benin /s/

SUBJECT:     Audit of USAID/Benin's Health Program
             (Report No. 7-680-04-00X-P)



      As requested, the Mission has reviewed RIG's draft audit report on
USAID/Benin's Health Program. Please find below our response to the audit
recommendations.

       Recommendation No. 1: We recommend that the USAID/Benin create a
schedule of monitoring visits to be conducted for each partner implementing USAID
health program activities in accordance with the Performance Management Plan.

        Action taken: The Family Health Team has developed for each bilateral
activity (PROSAF/URC, BHAPP/AFRICARE and Social Marketing of Family Health
products/PSI) a schedule to conduct monitoring visits. The schedule developed by each
Cognizant Technical Officer (CTO) is attached.

       Recommendation No. 2: We recommend that the USAID/Benin develop
procedures to monitor health program activities that would include a checklist
specifying the purpose and activities to be conducted during each scheduled monitoring
visit.


                     Tel. (229) 30-05-00,30-09-52,30-05-91 – Fax: (229) 30-12-60

                                                                                          19
        Action taken: USAID/Benin has drafted a Mission Order that will serve as
guidance for the checklist the CTOs will use for their site visits. The Mission Order
will be issued by December 29, 2003. Please see attached.

       Recommendation No. 3: We recommend that USAID/Benin develop procedures that
provide reasonable assurance that data reported to Washington have a data quality
assessment performed at least once every three years.

       Action taken: USAID/Benin has drafted a Mission Order on indicators and data
quality assessments (DQA) which will be issued by December 29, 2003. Please see
attached.

       The SO Teams are also asked to provide information on data quality assessment
during Portfolio reviews and in the annual FMFIA Review process. Please see attached the
Program Implementation Review template the SO teams fill out in their annual portfolio
review.

        In addition to the above mentioned procedures, a Statement of Work (SOW) supported
by a MAARD is currently circulating to recruit a consultant to perform the data quality
assessment for the health program. The DQA will be completed by the end of the first
quarter of 2004.




                                                                                             20
